No. ______
IN THE

Supreme Court of the United States
MICHAEL NANCE,
Petitioner,
v.
COMMISSIONER, GEORGIA DEPARTMENT OF CORRECTIONS, AND WARDEN,
GEORGIA DIAGNOSTIC AND CLASSIFICATION PRISON,
Respondents.
CERTIFICATE OF SERVICE
I, Matthew S. Hellman, hereby certify that I am a member of the Bar of this
Court, and that I have this 17th day of September 2021, caused three copies of the
Petition for a Writ of Certiorari to be served via overnight mail and an electronic
version of the document to be transmitted via the Court’s electronic filing system to:
Beth A. Burton, Deputy Attorney
General
Sabrina D. Graham, Senior Assistant
Attorney General
Clint C. Malcolm, Assistant Attorney
General
132 State Judicial Building
40 Capitol Square, S.W.
Atlanta, Georgia 30334-1300
(404) 656-3300
bburton@law.ga.gov

/s/ Matthew S. Hellman
Matthew S. Hellman

